G:.O:"   U.S. GOVERNMENT
         PRINTING OFFICE
         KEEPING AMERICA INI'ORMED
                                                                   Office of the Public Printer




         May 30, 2007


         The Honorable Robert A Brady
         Chairman
         Joint Committee on Printing
         1309 Longworth House Office Building
         Washington, DC 20515

         Dear Mr. Chairman:

         In accordance with 44 U.S.c. 3903 and the relevant provisions of the Inspector
         General Act of 1978, as amended, I am transmitting to the Congress the
         Semiannual Report of the Oilice or the Inspector General (OIG) for the U.S.
         Government Printing Office (GPO), covering the 6 month period of October 1,
         2006 through March 31,2007, along with the following information as required
         by law. This letter meets my statutory obligation to provide comments on the
         orG's report and highlights management actions taken on the OIG's
         recommendations, which may relate to more than one reporting period.

         During this reporting period, Bruce R. James resigned from his position as Public
         Printer following a four-year tenure. By operation of 44 U.S.C. 304, as Deputy
         Public Printer I am serving as Acting Public Printer pending the nomination and
         confirmation of a new Public Printer (on May 24, 2007, the President nominated
         Robert C. TapeIla, GPO's current Chief of Staff, to be Public Printer). In
         addition, during this period GPO's General Counsel, Anthony Zagami, retired
         from Government service. He was replaced by Gregory Brower, GPO's previous
         Inspector General ([G). J. Anthony Ogden, Deputy Inspector General, was named
         as acting IG (and on May 23,2007, was appointed permanent IG). In addition,
         the Superintendent of Documents, Judy Russell, retired in March 2007. Richard
         G. Davis is serving as Director, Library Services & Content Management/Acting
         Superintendent of Documents. In my view, the selection of a new Superintendent
         of Documents should appropriately be made by the next Public Printer.

         Genera) Comments

         As provided for by law, this section offers my general comments on the OIG's
         semiannual report and operations.




         732 North Capitol Street NW   Washington, DC 20401·0001         PublicPrinter@gpo.gov
The Honorable Robel1 A. Brady     Page 2


I.    Management Challenges. The Inspector General identified ten
      challenges facing GPO' s management. We agree that all of the areas
      highlighted reflect areas that are either undergoing significant change or
      are, by nature, dynamic and require continuing attention. Progress has
      been made on many of these items in the reporting period and additional
      work on these items continues on a daily basis. While we will maintain
      our focus on each of these challenges, we note that one or more may be
      overtaken or subsumed by new challenges undertaken by the next Public
      Printer. The thorough organizational and technological transformation
      that we have begun implementing during the last three years remains
      critical to the future of GPO. This effort must continue if the agency is to
      maintain its ability to provide public access to Govemment information
      through the 21 st century. The necessary pieces have been put in place for
      the next generation of GPO employees. Recruitment and training in the
      required skills is well underway. New systems are being acquired or
      developed, the most critical of which, known by the placeholder name
      "Future Digital System" (FDsys), will preserve and provide pennanent
      public access to Federal Government information.

       r do not take exception to any of the ten challenges offered by the IG,
       since all of them are vital to GPO's continuing transformation and to the
       completion of our Continuity of Operations Plan (COOP). GPO cannot
       afford to reverse its course - the completion of the transformation now
       underway is critical to providing the Nation with a 21 st century digital
       platform for providing a broad new range of choices in the delivery of
       published Govemment information.

II.    Audits and Inspections. During the reporting period, the OIG issued
       five new audit and assessment reports, including two sensitive reports,
       with recommendations to help improve operational performance.
       Management has concurred with all of these recommendations and will
       be addressing each one in the ensuing semiannual reporting period.

          Cl   The tlrst repolt, an assessment (sensitive), Report on Early Oracle
               fmplementation: fndependent Verification and Validatioll (JV& V),
               provided recommendations that G PO strengthen controls and
               mitigate risks associated with vulnerabilities identitled during
               IV&V activities on two early Oracle implementation projects
               conducted by an OIG contractor. GPO concurred with each of the
               recommendations and proposed responsive steps to mitigate the
               vulnerabilities.
The Honorable Robert A. Brady    Page 3


          o The second report, an assessment (sensitive), Report on WebTrust
              Assessment of GPO Certification Authority - Attestation Report, is
              based on an attestation report issued by an OIG contractor, and
              expresses the opinion that the assertions of GPO management
              regarding its Certification Authority which SUppOlts the cross
              certification of GPO's PKf with the Federal Bridge Certificate
              Authority - are fairly stated. GPO concurs in this finding.

          o   The third report, an assessment, Report on GPO PKI Certification
              Practices Statement Compliance with the Federal Common Policy
              Framework, provides the findings of an OIG contractor who
              examined GPO's Cel1ificate Practices

              Statement (required of organizations seeking accreditation as a
              provider of managed PKI services), and detennined that the
              Statement complied, in all material respects, with the
              Government's X.S09 Certificate Policy for the Common Policy
              Framework, as required by the Federal Identity Credentialing
              Committee. GPO concurs in this finding.

          o   The fourth report, Follow-On Report on GPO Purchase Card
              Program, found that management and supervisory controls over
              GPO purchase card cardholders should be strengthened. The audit
              found evidence of unauthorized use of GPO purchase cards,
              inadequate record-keeping, erroneous payment of State and local
              sales taxes, inappropriately large purchases, and inconsistent
              review of monthly statements. The report recommends GPO
              strengthen management and supervisory controls over purchase
              card use, and insure that cards are used in compliance with
              applicable laws and regulations. GPO concurs with the
              recommendations and will implement the requisite policies and
              procedures to respond to them.

          o   The filth report, Repotl all Peer-to-Peer File Sharing, indicates
              that an audit found a file sharing protocol residing within the GPO
              network domain and that such file sharing software can present a
              security risk to GPO's network. The report recommends that GPO
              strengthen controls over the use of peer-to-peer file sharing on the
              GPO network. GPO concurs with the recommendation and has
              proposed the appropriate responsive measures.
The Honorable Robert A. Brady     Page 4


GPO is required to obtain an independent annual audit of its financial statements.
The audit firm contracted for this purpose issued an unqualified opinion on
GPO's financial statements for FY 2006, stating the statements were presented
fairly and in conformance with generally accepted accounting principles. The
audit report indicated, however, that controls involving the billing process should
be strengthened, that certain reconciliation controls should be strengthened, that
controls over recording and reporting environmental liabilities should be
improved, and that general controls for Information Technology should be
improved. GPO concurs with these recommendations and has planned Of initiated
actions to address them.

III.    Investigations. The investigative work performed by the OIG to protect
        against waste, fraud, and abuse merits recognition, as a case involving
        theft of otlice supplies was successfully prosecuted and convictions were
        obtained. Other accomplishments, such as the investigations that led to
        recovery of fraudulent workers' compensations claims, corrective action
        against an employee for personal use of an agency vehicle, and pending
        DO] prosecution of a contractor alleged to have made false claims, are
        clear evidence orthe value of the OIG's investigative team in protecting
        the public funds entrusted to the GPO.

Prior Period Outstanding Recommendations

As required by law, this section summarizes management's planned action to
address remaining orG's recommendations still outstanding from previous
reporting periods.

                    Blank Passport Product Integrity and Security
                     (Report No. AI-OS02, dated March 31, 2005)

GPO generally concurs with the recommendations and has made continuous
adjustments to its operations in order to address them. During the reporting
period, foul' of the eight remaining open recommendations were closed. GPO is
taking action to close the remaining four recommendations.

          GPO Network Vulnerability Assessment (Report No. 06-02, dated
                               March 28, 2006)

GPO concurred with the four recommendations issued in this report, and has
closed one of the them. GPO is working with the OIG to implement steps that will
close the remaining three open recommendations.
The Honorable Robeli A. Brady       Page 5


             GPO Oracle Program Stakeholder Analysis (Report No. 06-03,
                                  dated March 31, 2006)

GPO concurred with the report's thirteen recommendations and closed one of
them with the hiring of an Oracle Program Manager in March 2007.
Implementation of responsive action on the remaining twelve recommendations is
now taking place under the direction of the Oracle Program Manager. GPO
anticipates substantial progress in closing these recommendations during the
current reporting period.

                  Inspection of GPO's Continuity of Operations Plan
                      (Report No. 06-04, dated March 31, 2006)

GPO concurred with the report's eighteen recommendations, all of which focused
on the requirement to establish a viable COOP Plan. In response to the
recommendations, GPO developed a comprehensive COOP Plan based on the
FEMA template. GPO's plan was subsequently circulated, revised, and approved.
 The OIG considers twelve of the recommendations still open. GPO is working
with the OIG to attain closure of the open recommendations and, in fact, has
taken actions that it considers to have closed eleven additional recommendations
since the end of the reporting period.

Statistical Tables

Statistical tables as required by law are enclosed.

If you need additional information with respect to this report, please do not
hesitate to contact Mr. Andrew M. Sherman, Director of Congressional Relations,
on 202-512-1991, or bye-mail at asherman@gpo.gov.

Sincerely,




WILLIAM H. TURRI
Acting Public Printer

Enclosures
cc;   The Honorable Diane Feinstein, Vice Chairnlan
      The Honorable Robert Bennett, Ranking Minority Member
      The Honorable Mike Capuano
      The Honorable Vernon Ehlers
      The Honorable Kevin McCarthy
      The Honorable Daniel K. Inouye
      The Honorable Patty Murray
      The Honorable Saxby Chambliss
ENCLOSURE I
                  STATISTICAL TABLE FOR SECTION S(b)(2) - DISALLOWED COSTS

                                                           Number of         Disallowed Costs
                                                         Audit Reports Questioned Unsul2l2orted
A.     Audit reports for which final action I had
       not been taken by the commencement
       of the reporting period                                 0                0           0

       Audit reports issued during the period
       with potential disallowed costs                          0               0           0

       Total Costs                                              0               0           0

B.     Audit reports on which management
       decisions 2 were made during the
       reporting period

       ( i.)    Dollar value of disallowed costs               0            0               0

       (ii. )   Dollar value of allowed costs                               112,927         63,935

C.     Audit reports for which final action
       was taken during the period, including;

       ( i.)    Dollar value of disallowed costs               0            0               0
                that were recovered by management
                through otlsets against other
                contractor invoices or nonpayment

       (ii. )   Dollar value of disallowed costs                   0        0               0
                that were written off by management

D.     Audit repolts for which no final                         0           0               0
       action has been taken by the end
       of the reporting period




t As defined by law, the term '"11nal action" means the completion of all actions that the management of
an establishment has concluded, in its management decision, are necessary with respect to the findings
and recommendations included in an audit report, and in the event that the management concludes no
action is necessary, final action occLlrs when a management decision has been made.
2 As defined by law, the term "management decision" means the evaluation by management of the
tindings and recommendations included in an audit report and the issuance of a tinal decision by
management concerning its response to such findings and recommendations, including actions concluded
to be necessary.
ENCLOSURE II


      STATISTICAL TABLE FOR SECTION 5(b)(3) - FUNDS PUT TO BETTER USE
                  AGREED TO IN A MANAGEMENT DECISION

                                                         Number of       Dollar Value of
                                                         Audit ReRorts   Recommendations
     A, Audit reports for which final action] had
        not been taken by the commencement of
        the reporting period                                    0                   0

         Audit reports for which final action had
         not been taken for new reports issued
         during the reporting period with potential
         funds put to bettcr use                                0                   0

B.       Audit reports on which management
         decisions 4 were made during the reporting
         period                                                 0                   0

C.       Audit reports for which final action was
         taken during the reporting, including:

         ( i,)    Dollar value of recommendations
                  that were actually completed                  0                   0

         (ii. )   Dollar value of recommendations
                  that management has subsequently
                  concluded should not or could not
                  be implemented or completed                   0                   0

D,       Audit reports for which no final action has
         been taken by the end of the reporting period          0                   0




J Same definition as in Enclosure L
" Same definition as in Enclosure L
